                   AUDIT REPORT
                  Audit of NRC’s Implementation of
                          HSPD-12 Phase 2


                    OIG-11-A-09 March 30, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          March 30, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC'S IMPLEMENTATION OF HSPD-12
                            PHASE 2 (OIG-11-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC's
Implementation of HSPD-12 Phase 2.

The report presents the results of the subject audit. Informal comments provided by
agency management at the March 21, 2011, exit conference have been incorporated,
as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Security and Information Team Leader, at 415-5911.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Mary C. Muessle, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Acting Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                          Audit of NRC’s Implementation of HSPD-12 Phase 2



EXECUTIVE SUMMARY



                  HSPD-12 Requirements and Supporting Guidance for Federal
                  Agencies

                  Homeland Security Presidential Directive 12 (HSPD-12) is a Presidential
                  directive issued in August 2004. HSPD-12 states that it is national policy
                  to “enhance security, increase Government efficiency, reduce identity
                  fraud, and protect personal privacy” by establishing common identification
                  standards for all Federal Government employees and contractors.1
                  Further, HSPD-12 directs executive branch agencies to use standardized
                  identification to gain physical access to Federal facilities and logical
                  access to Federal information systems. As a Federal executive branch
                  agency,2 the U.S. Nuclear Regulatory Commission (NRC) is required to
                  comply with HSPD-12 requirements.

                  The Office of Management and Budget (OMB) is responsible for issuing
                  implementation guidance and ensuring Federal agencies’ compliance with
                  this guidance. OMB is also responsible for ensuring agency compliance
                  with technical standards issued by the Secretary of Commerce. The
                  National Institute of Standards and Technology (NIST)—an organization
                  within the Department of Commerce—established basic technical
                  standards in Federal Information Processing Standards Publication 201
                  (FIPS 201).3




1
 Homeland Security Presidential Directive 12, Policy for a Common Identification Standard for Federal
Employees and Contractors, August 27, 2004.
2
    Title 5 U.S. Code §105.
3
 Federal Information Processing Standards Publication 201-1, Personal Identity Verification (PIV) of
Federal Employees and Contractors, National Institute of Standards and Technology, March 2006.


                                                    i
                                                             Audit of NRC’s Implementation of HSPD-12 Phase 2



                   FIPS 201 prescribes standards for verifying the identities of Federal
                   employees and contractors,4 issuing identification cards known as
                   Personal Identity Verification (PIV) cards,5 and managing data systems to
                   support use of PIV cards.

                   Identity, Credential, and Access Management

                   Use of PIV cards is a basic element of a broader Federal Government
                   initiative called Identity, Credential, and Access Management (ICAM),
                   which aims to carry out specific provisions as well as the full intent of
                   HSPD-12. ICAM programs have two main areas of operations: physical
                   access control systems (PACS), which provide physical security at
                   Federal facilities, and logical access control systems (LACS), which
                   address the security of Federal computer networks.

                   HSPD-12 Implementation at NRC

                   NRC’s Office of Administration (ADM) has primary responsibility for PACS
                   implementation, including installation and maintenance of PIV card
                   readers that control access at doors and other entry points at NRC
                   facilities. At the end of this audit, NRC had completed installation of PIV
                   card readers and the supporting data system within headquarters
                   buildings. However, ADM staff told auditors that PACS deployment at
                   NRC regional offices was ongoing and would likely continue through the
                   first half of calendar year 2011.

                   NRC’s Office of Information Services (OIS) provides information
                   technology support for PACS, and has primary responsibility for
                   forthcoming efforts to implement LACS at employees’ computer
                   workstations. To implement LACS, NRC will equip employee workstations
                   with PIV card readers, and the cards will authenticate users to NRC’s




4
    FIPS 201 refers to this process as identity proofing.
5
 Specifically, FIPS 201 describes PIV card elements, system interfaces, and security controls required to
securely store, process, and retrieve identity credentials from the PIV card. Physical card characteristics,
storage media, and data elements that make up identity credentials are specified in this standard.


                                                        ii
                                                     Audit of NRC’s Implementation of HSPD-12 Phase 2



              network in lieu of multiple currently required application-specific
              passwords. OIS has started a pilot LACS program and expects to begin
              implementing the technology agencywide by the end of calendar year
              2011.6




              The audit objective was to assess whether NRC has effectively
              implemented its ICAM programs.




              NRC completed implementation of the PACS portion of its ICAM program
              at headquarters facilities during calendar year 2010, and expects to
              conclude this work at regional offices during the first half of calendar year
              2011. All NRC staff and contractors eligible for the new PIV identification
              cards required by HSPD-12 have obtained these cards, and NRC
              continues to integrate PIV card technology with physical security upgrades
              at its facilities. Further, NRC has begun piloting the use of LACS at
              employees’ computer workstations to enhance network security and
              simplify the log-in process. Based on NRC’s experience in transitioning to
              the new PACS technology, OIG identified opportunities to facilitate the
              NRC’s LACS implementation through improved employee outreach and
              training.




              This report makes recommendations to facilitate NRC’s adoption of new
              information technology required for logical access control systems.




              At an exit conference on March 21, 2011, agency management stated
              their general agreement with the finding and recommendations in this
              report. Agency management also provided supplemental information that
              has been incorporated into this report. As a result, the agency opted not
              to provide formal comments for inclusion in this report.

6
 Two NRC computer applications—the National Source Tracking System and the Safeguards Information
Local Area Network and Electronic Safe—already employ LACS technology.

                                               iii
                                  Audit of NRC’s Implementation of HSPD-12 Phase 2



ABBREVIATIONS AND ACRONYMS

       ADM         Office of Administration

       HSPD-12     Homeland Security Presidential Directive 12

       ICAM        Identity, Credential, and Access Management

       FIPS        Federal Information Processing Standards

       FY          fiscal year

       LACS        Logical Access Control System

       NIST        National Institute of Standards and Technology

       NRC         U.S. Nuclear Regulatory Commission

       OIG         Office of the Inspector General

       OIS         Office of Information Services

       OMB         Office of Management and Budget

       PACS        Physical Access Control System

       PIV         Personal Identity Verification




                             iv
                                                         Audit of NRC’s Implementation of HSPD-12 Phase 2

TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 7

        III. FINDING

                   NRC CAN IMPROVE EMPLOYEE OUTREACH AND
                   TRAINING IN PREPARATION FOR LACS IMPLEMENTATION ............... 8

        IV. RECOMMENDATIONS ............................................................... 12

        V.    AGENCY COMMENTS................................................................. 12


        APPENDIX

              SCOPE AND METHODOLOGY .................................................. 13




                                                  v
                                                             Audit of NRC’s Implementation of HSPD-12 Phase 2



I.         BACKGROUND

                   HSPD-12 Requirements and Supporting Guidance for Federal
                   Agencies

                   Homeland Security Presidential Directive 12 (HSPD-12) is a Presidential
                   directive issued in August 2004. HSPD-12 states that it is national policy
                   to “enhance security, increase Government efficiency, reduce identity
                   fraud, and protect personal privacy” by establishing common identification
                   standards for all Federal Government employees and contractors.7
                   Further, HSPD-12 directs executive branch agencies to use standardized
                   identification to gain physical access to Federal facilities and logical
                   access to Federal information systems. As a Federal executive branch
                   agency,8 the U.S. Nuclear Regulatory Commission (NRC) is required to
                   comply with HSPD-12 requirements.

                   The Office of Management and Budget (OMB) is responsible for issuing
                   implementation guidance and ensuring Federal agencies’ compliance with
                   this guidance. OMB is also responsible for ensuring agency compliance
                   with technical standards issued by the Secretary of Commerce. The
                   National Institute of Standards and Technology (NIST)—an organization
                   within the Department of Commerce—established basic technical
                   standards in Federal Information Processing Standards Publication 201
                   (FIPS 201).9

                   Personal Identity Verification

                   FIPS 201 prescribes standards for verifying the identities of Federal
                   employees and contractors,10 issuing identification cards known as



7
 Homeland Security Presidential Directive 12, Policy for a Common Identification Standard for Federal
Employees and Contractors, August 27, 2004.
8
    Title 5 U.S. Code §105.
9
 Federal Information Processing Standards Publication 201-1, Personal Identity Verification (PIV) of
Federal Employees and Contractors, National Institute of Standards and Technology, March 2006.
10
     FIPS 201 refers to this process as identity proofing.


                                                        1
                                                           Audit of NRC’s Implementation of HSPD-12 Phase 2



                Personal Identity Verification (PIV) cards,11 and managing data systems to
                support use of PIV cards. PIV cards are personalized with information
                unique to each employee. The surface of each PIV card shows an
                employee’s photograph, name, agency, and affiliation (e.g., contractor,
                military, or civilian employee). PIV cards also store electronic
                information12 that is transmitted via card readers to data servers, which
                use this information to confirm an employee’s identity and access rights.
                The physical access PIV card readers are contactless, meaning they can
                read the information contained in PIV cards when an employee places
                his/her PIV card on or near a reader’s surface.13 Physical access PIV
                card readers are typically connected to door locks, which are locked as
                their default setting but unlock briefly when employees with appropriate
                access rights apply their PIV cards to the readers. Security officers may
                also use mobile, hand-held PIV card readers to control access in areas
                without fixed entry points, such as hallways and elevator banks. Figures 1
                and 2 illustrate a sample NRC PIV card, and describe the data elements
                and their placement on the front and back sides as required by FIPS 201.




11
   Specifically, FIPS 201 describes PIV card elements, system interfaces, and security controls required
to securely store, process, and retrieve identity credentials from the PIV card. Physical card
characteristics, storage media, and data elements that make up identity credentials are specified in this
standard.
12
  Electronic information stored on PIV cards includes the Cardholder Unique Identifier; Personal
Identification Number; two biometric fingerprint templates; and authentication data including the PIV
authentication key, card authentication key, digital signature key, and key management key. PIV cards
themselves do not store personally identifiable information, such as social security numbers.
13
  Before NRC adopted PIV cards, the agency used identification cards that relied upon physical contact
between the card and card reader interface to unlock doors.


                                                     2
                                Audit of NRC’s Implementation of HSPD-12 Phase 2



 Figure 1: Sample NRC PIV Card (Front View)




Source: NRC




                           3
                                              Audit of NRC’s Implementation of HSPD-12 Phase 2



              Figure 2: Sample NRC PIV Card (Back View)




Source: NRC




                                         4
                                                          Audit of NRC’s Implementation of HSPD-12 Phase 2



                Figure 3 illustrates how PIV cards and fixed card readers are used to
                unlock a door (note the green light on the card reader indicating that the
                adjacent door is temporarily unlocked).

                Figure 3: Photograph of PIV Card Use for Physical Access




Source: NRC


                NRC began issuing PIV cards to employees and contractors during early
                2010,14 and requiring use of PIV cards for physical access to NRC
                headquarters facilities beginning in July 2010.15 As of September 1, 2010,
                NRC had issued PIV cards to 4,331 eligible staff and 1,236 eligible
                contractors. This represents 100 percent of NRC and contractor
                personnel with completed background checks who were eligible to obtain
                PIV cards.




14
  In accordance with OMB guidance, Federal agencies must conduct background reviews of all
employees and contractors who are to be issued PIV cards.
15
   Installation of PIV card readers and supporting data systems at some non-headquarters facilities was
still underway at the conclusion of this audit. See Appendix, “Scope and Methodology.”


                                                    5
                                                     Audit of NRC’s Implementation of HSPD-12 Phase 2



              NRC’s Identity, Credential, and Access Management Programs

              Use of PIV cards is a basic element of a broader Federal Government
              initiative called Identity, Credential, and Access Management (ICAM),
              which aims to carry out specific provisions as well as the full intent of
              HSPD-12. ICAM programs have two main areas of operations: physical
              access control systems (PACS), which provide physical security at
              Federal facilities, and logical access control systems (LACS), which
              address the security of Federal computer networks. NRC staff meet on a
              regular basis with representatives from other Federal agencies to share
              information and keep apprised of changing guidance that can impact
              agencies’ respective ICAM programs.

              NRC’s Office of Administration (ADM) has primary responsibility for PACS
              implementation, including installation and maintenance of PIV card
              readers that control access at doors and other entry points at NRC
              facilities. At the end of this audit, NRC had completed installation of PIV
              card readers and the supporting data system within headquarters
              buildings. However, ADM staff said that PACS deployment at NRC
              regional offices was ongoing and would likely continue through the first
              half of calendar year 2011.

              NRC’s Office of Information Services (OIS) provides information
              technology support for PACS, and has primary responsibility for
              forthcoming efforts to implement LACS at employees’ computer
              workstations. To implement LACS, NRC will equip employee workstations
              with PIV card readers, and the cards will authenticate users to NRC’s
              network in lieu of multiple, currently required application-specific
              passwords. A primary objective of LACS is to enhance computer network
              security by using digital certificates to verify the identity of network users in
              lieu of multiple passwords, which can be forgotten by employees and are
              more easily compromised. In addition, LACS may slightly enhance
              workplace efficiency because NRC employees will have fewer passwords
              to memorize and change on a routine basis. OIS has started a pilot LACS
              program and expects to begin implementing the technology agencywide
              by the end of calendar year 2011.16 Figure 4 shows an illustration of a
              computer workstation PIV card reader.

16
   Two NRC computer applications—the National Source Tracking System and the Safeguards
Information Local Area Network and Electronic Safe—already employ LACS technology.

                                                6
                                             Audit of NRC’s Implementation of HSPD-12 Phase 2



            Figure 4: Computer Workstation PIV Card Reader




      Source: NRC


            NRC spent approximately $3.7 million over the Fiscal Year (FY) 2007-
            2010 period on PACS implementation costs such as hardware, software,
            data system certification and accreditation, and labor. NRC spent
            approximately $2.4 million in FY 2010 for LACS implementation. NRC
            expects to spend approximately $1.3 million over the FY 2011-2012 period
            to operate and maintain PACS equipment, and to integrate it with LACS
            infrastructure.



II.   PURPOSE

            The audit objective was to assess whether NRC has effectively
            implemented its ICAM programs. See the report appendix for information
            on the audit scope and methodology.




                                        7
                                                         Audit of NRC’s Implementation of HSPD-12 Phase 2



III.    FINDING

                NRC completed implementation of the PACS portion of its ICAM program
                at headquarters facilities during calendar year 2010, and expects to
                conclude this work at regional offices during the first half of calendar year
                2011. All NRC staff and contractors eligible for the new PIV identification
                cards required by HSPD-12 have obtained these cards, and NRC
                continues to integrate PIV card technology with physical security upgrades
                at its facilities. Further, NRC has begun piloting the use of LACS at
                employees’ computer workstations to enhance network security and
                simplify the log-in process. Based on NRC’s experience in transitioning to
                the new PACS technology, the Office of the Inspector General (OIG)
                identified opportunities to improve the transition to LACS technology. This
                report makes recommendations to enhance employee outreach in
                preparation for LACS implementation at NRC.

                NRC Can Improve Employee Outreach and Training in Preparation
                for LACS Implementation

                Effective employee outreach and training are important steps in managing
                technological and procedural changes at organizations. NRC conducted
                limited outreach activities in preparation for PACS implementation.
                However, additional outreach activities occurred several months after the
                use of PIV cards became mandatory for physical access at NRC
                headquarters. This delay occurred for two main reasons. First, NRC
                lacked a communications plan for educating employees about PACS and
                for coordinating outreach activities with PACS implementation schedules.
                Second, some policies and procedures for using PACS equipment—i.e.,
                “use case” 17 policies and procedures—were still evolving after the
                equipment’s use became mandatory at NRC headquarters. This had
                relatively minor effects on employee attitudes toward and understanding of
                PACS use. However, NRC’s forthcoming LACS implementation will
                significantly impact policies and procedures for accessing NRC computer
                networks. Consequently, NRC employees must have a clear
                understanding of these policies and procedures to avoid disruptions that
                could adversely affect employee productivity.

17
   “Use case” is a software and systems engineering term that describes how information technology will
function in response to user behavior. In short, a “use case” describes "who" can do "what" with
information technology in specific scenarios or conditions.

                                                   8
                                   Audit of NRC’s Implementation of HSPD-12 Phase 2



Outreach and Training Are Key To Managing Technological and
Procedural Change

Effective employee outreach and training are important steps in managing
technological and procedural changes at organizations. A draft version of
ICAM guidance recently circulated by the Federal Chief Information
Officers Council to NRC and other Federal agencies identifies outreach as
a key PACS implementation activity. Specifically, outreach “involves
actively communicating to users that a new access control system is being
deployed, the benefits and efficiencies that users can expect, and any
steps necessary to begin using the new system. Informational materials
need to clearly communicate the right message to the appropriate
audience.” The draft ICAM guidance also describes end user training as a
related and highly important step. In particular, training materials “should
be created with the end user in mind and training should be completed
prior to PACS deployment to ensure that users are capable of accessing
facilities without undue disruption to the agency’s mission.” The draft
ICAM guidance makes similar recommendations for LACS
implementation, and emphasizes LACS training “prior to LACS
deployment to ensure that users are capable of accessing protected
resources without undue disruption to the agency’s mission.” [Italics
added for emphasis.]

PACS Implementation Had Limited Outreach and Training

NRC conducted limited outreach activities and no formal user training in
preparation for PACS implementation. NRC's primary means for
educating staff about PACS were e-mail announcements, and two “Town
Hall” meetings during which NRC staff addressed NRC employees’
questions about HSPD-12 as well as headquarters building construction
and renovation. NRC staff produced a PowerPoint presentation
explaining PIV cards’ purpose and use. However, this presentation
appeared on the NRC Intranet in September 2010—approximately 2
months after NRC began requiring employees to badge in with their new
PIV cards in July 2010. Similarly, NRC staff created placards to inform
personnel about PIV cards, but the placards were undergoing
management review in December 2010—approximately 5 months after
PIV cards became mandatory for physical access to headquarters
buildings.


                              9
                                                          Audit of NRC’s Implementation of HSPD-12 Phase 2



                NRC Lacked Communications and Training Plan in Preparation for
                PACS Implementation

                NRC conducted limited outreach and training in preparation for PACS
                implementation for two reasons. First, NRC lacked a communications
                plan for educating employees about PACS through different media and
                coordinating outreach activities with PACS implementation schedules.

                Second, some policies and procedures for using PACS equipment—i.e.,
                “use case” policies and procedures—were still evolving after the
                equipment’s use became mandatory. For example:

                    Badge-in procedures changed after ADM staff realized that NRC
                    employees were having difficulty placing their PIV cards properly on
                    the card readers at pedestrian and vehicular entrances. In response,
                    contract guards were instructed to take employees’ PIV cards and
                    badge them in.

                    NRC activated new anti-tailgating sensors at select locations in
                    September 2010, and required employees to follow specific anti-
                    tailgating procedures.18 However, ADM staff acknowledged during this
                    audit that the procedures were provisional and subject to change
                    based upon lessons learned following the deployment of the anti-
                    tailgating equipment.

                Although NRC could develop physical access “use case” policies after
                PACS became operational with minimal inconvenience to employees, the
                agency will not have this flexibility during LACS implementation. Unlike
                physical access procedures that allow for visual authentication and
                issuance of temporary identification cards, LACS will require a PIV card
                for employees to access NRC’s networks from their workstations. For
                example:

                1. If employees forget to bring their PIV cards to work, NRC must either
                   develop a technical solution that enables them to access agency
                   networks, or establish policies to account for lost work time.


18
  Anti-tailgating sensors are designed to detect individuals who follow others through doorways without
applying PIV cards to the card readers.

                                                   10
                                                           Audit of NRC’s Implementation of HSPD-12 Phase 2



                2. Lost or stolen PIV cards present a different challenge since these
                   circumstances require termination of a lost or stolen card. Employees
                   must then obtain a new PIV card.

                3. Some executive staff may be exempt from LACS policies; if so, NRC
                   must specify the level of seniority that permits exemptions and apply
                   this policy consistently across the agency.

                Improved Outreach and Training Will Be Critical for LACS
                Implementation

                Despite challenges in NRC’s transition to new PACS technology, auditors
                found no material effect on NRC operations. Anecdotal evidence
                suggests some staff regard PIV cards as a minor inconvenience and do
                not understand NRC's requirements and conditions for PIV cards.
                Further, NRC staff said that a few PIV cards are damaged on a weekly
                basis through employee misuse.19 Nevertheless, NRC’s plans to deploy
                LACS technology will significantly impact policies and procedures for
                accessing NRC computer networks. NRC staff are working to address
                LACS “use cases,” such as lost, stolen, or forgotten PIV cards, as well as
                employees who have multiple job roles and access rights parameters. 20
                NRC management is aware of these and other “use case” challenges, but
                must ensure they are resolved prior to LACS implementation to avoid
                work-routine disruptions that could adversely affect employee productivity.




19
   PIV cards contain antennae coils to transmit data to contactless PIV card readers. These coils are
fragile and cannot withstand repeated stress from flexing.
20
  At present, Federal PIV card security policies assume a principle of “one individual, one PIV card, one
set of roles.” However, an NRC employee may have limited user rights in some NRC network
applications while maintaining broader administrative rights in one or more applications.

                                                    11
                                            Audit of NRC’s Implementation of HSPD-12 Phase 2



         Further, NRC employees and managers across the agency must
         understand LACS policies and procedures so that employees are not
         inadvertently denied network access, and do not compromise NRC
         network security by inadvertently violating LACS “use case” policies.



IV.   RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1. Create and implement a LACS communication and outreach plan that
            targets NRC users through different media, and is coordinated with
            LACS deployment schedules.

         2. Require one-time mandatory LACS policy and procedure training for all
            staff, managers, and contractors who require desktop access to NRC
            networks, and make this training available in an on-demand format.

         3. Establish clear “use case” policies and procedures prior to LACS
            deployment.



V.    AGENCY COMMENTS

         At an exit conference on March 21, 2011, agency management stated
         their general agreement with the finding and recommendations in this
         report. Agency management also provided supplemental information that
         has been incorporated into this report. As a result, the agency opted not
         to provide formal comments for inclusion in this report.




                                      12
                                         Audit of NRC’s Implementation of HSPD-12 Phase 2

                                                                              Appendix
SCOPE AND METHODOLOGY

       The audit objective was to assess whether NRC has effectively
       implemented its ICAM programs. To address the audit objective, OIG
       auditors attended briefings presented by NRC staff, NRC contractors, and
       representatives from other Federal agencies. OIG auditors toured
       facilities at the NRC headquarters complex, the NRC Region II office, and
       the NRC Technical Training Center. During these tours, OIG auditors
       observed new PACS equipment in use, tested it to ensure compliance
       with NRC security plans, and questioned NRC staff and contract security
       personnel about the equipment. OIG auditors also toured a contractor
       facility that manufactures PIV cards for NRC and other Federal clients.
       Further, OIG auditors conducted multiple interviews of NRC staff
       representing ADM, OIS, and the Computer Security Office, as well as
       contractor personnel who provide technical support to NRC.

       OIG auditors reviewed pertinent guidance, including:

          HSPD-12, Policy for a Common Identification Standard for Federal
          Employees and Contractors, August 27, 2004.

          OMB Memorandum M-05-24, Implementation of Homeland Security
          Presidential Directive (HSPD) 12 – Policy for a Common Identification
          Standard for Federal Employees and Contractors, August 5, 2005.

          FIPS 201-1, Personal Identity Verification (PIV) of Federal Employees
          and Contractors, March 2006.

          NIST SP 800-116, A Recommendation for the Use of PIV Credentials
          in Physical Access Control Systems (PACS), November 2008.

           Federal Identity, Credential, and Access Management Roadmap and
          Implementation Guidance, Part B: Implementation Guidance Initial
          Phase 1 ICAM Release Draft, November 19, 2010.

          Orders for NRC headquarters contract security personnel.




                                    13
                                   Audit of NRC’s Implementation of HSPD-12 Phase 2



In addition, OIG auditors reviewed contract documentation, budget data,
and staff manpower data related to PACS and LACS implementation, as
well as Commission papers and other relevant internal planning
documents. OIG auditors also reviewed documentation of efforts to
ensure PACS data system compliance with Federal information system
security requirements.

OIG conducted this performance audit at NRC headquarters from
September 2010 through March 2011 in accordance with generally
accepted Government auditing standards. Those standards require the
audit to be planned and performed with the objective of obtaining
sufficient, appropriate evidence to provide a reasonable basis for any
findings and conclusions based on the stated audit objective. OIG
believes that the evidence obtained provides a reasonable basis for the
report findings and conclusions based on the audit objective. OIG
reviewed and analyzed internal controls related to the audit objective.
Throughout the audit, auditors were aware of the possibility or existence of
fraud, waste, or misuse in the program. The audit was conducted by Beth
Serepca, Team Leader; Paul Rades, Audit Manager; and Gail Butler,
Analyst.




                             14
